<html>
<title> - NUCLEAR DEAL FALLOUT: THE GLOBAL THREAT OF IRAN</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                         NUCLEAR DEAL FALLOUT: 
                       THE GLOBAL THREAT OF IRAN

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 24, 2017

                               __________

                           Serial No. 115-28

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
  
                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-556 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="791e0916391a0c0a0d111c1509571a161457">[email&#160;protected]</a>                                
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           WILLIAM R. KEATING, Massachusetts
DARRELL E. ISSA, California          LOIS FRANKEL, Florida
PAUL COOK, California                BRENDAN F. BOYLE, Pennsylvania
SCOTT PERRY, Pennsylvania            DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
BRIAN J. MAST, Florida               BRADLEY SCOTT SCHNEIDER, Illinois
THOMAS A. GARRETT, Jr., Virginia
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Ilan Berman, senior vice president, American Foreign Policy 
  Council........................................................     5
Ray Takeyh, Ph.D., Hasib J. Sabbagh senior fellow for Middle East 
  studies, Council on Foreign Relations..........................    16
Daniel L. Byman, Ph.D., senior fellow, Center for Middle East 
  Policy, Brookings Institution..................................    24

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Ilan Berman: Prepared statement..............................     7
Ray Takeyh, Ph.D.: Prepared statement............................    18
Daniel L. Byman, Ph.D.: Prepared statement.......................    26

                                APPENDIX

Hearing notice...................................................    52
Hearing minutes..................................................    53
The Honorable Bradley S. Schneider, a Representative in Congress 
  from the State of Illinois: Prepared statement.................    54
Written responses from Mr. Ilan Berman to questions submitted for 
  the record by the Honorable William Keating, a Representative 
  in Congress from the Commonwealth of Massachusetts.............    56

 
                         NUCLEAR DEAL FALLOUT: 
                       THE GLOBAL THREAT OF IRAN

                              ----------                              


                        WEDNESDAY, MAY 24, 2017

                     House of Representatives,    

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:09 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ted Poe 
(chairman of the subcommittee) presiding.
    Mr. Poe. The subcommittee will come to order.
    Without objection, all members may have 5 days to submit 
statements, questions, extraneous materials for the record, 
subject to the length limitation and the rules.
    I will make my opening statement.
    Two years ago, Iran and six major world powers reached an 
agreement regarding its program of nuclear capability. That 
deal was a result of a decade of tough U.S. and international 
sanctions placed on the Iranian regime because of its dangerous 
nuclear ambitions.
    The mullahs in Tehran felt the pain of sanctions. That is 
why they came to the negotiating table. At that moment, we had 
the most leverage over the regime. But, unfortunately, a deal 
that the past administration brokered turns out to be seriously 
flawed.
    For starters, the deal simply put Iran's nuclear plans on 
hold for 10 to 15 years. After that time, Iran is free to 
develop a nuclear weapon and menace the world. Even worse, the 
deal did not address Iran's continued sponsorship of terrorists 
with American blood on their hands. It also did nothing to curb 
the development of ballistic missiles.
    Iran gained immediate access to hundreds of billions of 
dollars, and the promise of yet more to come, due to the 
sanctions' relief. Only weeks after the announcement of the 
deal, reports indicated that Iran had significantly increased 
funding to Hezbollah and Hamas, both terrorist groups. This 
increased funding allowed Hezbollah to increase its operations 
in Syria, where the group has deepened its sectarian divide. 
Hezbollah has also used this new funding to obtain highly 
developed new armaments, including advanced technologies used 
by professional state militaries. While Hezbollah has been busy 
helping its Iranian masters prop up the brutal Assad regime in 
Syria, they have contracted out their violently anti-Israel 
agenda.
    In 2016, Israeli authorities arrested a Palestinian cell 
organized and funded by Hezbollah that had planned to carry out 
suicide bombings. Iran also cemented its ties with the 
Palestinian terror group Hamas by providing them with missile 
technologies that enabled them to build their own rockets to 
target Israeli citizens. Iran helped Hamas build its terrorist 
tunnel infrastructure that was destroyed by Israel in 2014.
    Since the nuclear deal, Iran terrorist plots have been 
uncovered in Kuwait, Bahrain, and Saudi Arabia. Hezbollah and 
Iran also remain active in Latin America where they operate 
criminal networks that yield even more money for Tehran to 
invest in terrorism. Back at home in Iran, the mullahs are busy 
dedicating more time and money to their ballistic missile 
program.
    Since the announcement of the nuclear deal, Iran has 
conducted 14 ballistic missile tests. Earlier this month, Iran 
attempted to launch a cruise missile from one of its midget 
submarines, the same type of submarines the terrorist regime in 
North Korea is developing. Iran and North Korea are the only 
countries that deploy this class of submarine.
    The failed test reminded the world of Iran and North 
Korea's long history of collaboration on this ballistic and 
even nuclear programs. Their dangerous relationship goes all 
the way back to the 1980s. Now the two rogue regimes are 
believed to be working on developing intercontinental ballistic 
missiles, ICBMs. Why is Iran moving ahead with a ballistic 
missile program? Because ballistic missiles are the best 
delivery system for nuclear weapons.
    So while they wait 10 years till they can develop a bomb, 
Iran is ensuring they have the technology to deliver that 
payload. And there are some doubts about whether Iran is 
actually complying with the deal.
    Members of the National Council of Resistance of Iran 
claimed last month that Iran is still working on weaponization, 
the final step on the path to nuclear weapons. It is clear this 
deal has allowed the mullahs to increase their support of 
terrorism and proliferation.
    Leading up to the deal, the past administration assured us 
that the U.S. would continue to fight against Iran's maligned 
behavior. It is time now we get serious about that. We cannot 
allow Iran to continue threatening the United States and our 
allies unchecked. The question is: How do we do that? That is 
why we are having this hearing, and we have these three experts 
that will give us the answers to all of that.
    And I will now yield to the gentleman from Massachusetts, 
Mr. Keating, for his opening statement.
    Mr. Keating. Thank you, Chairman Poe. And thank you for the 
witnesses that are here today to testify.
    This hearing is very timely, coming less than a week after 
the reelection of Iranian President Rouhani, who was a key 
figure in reaching the nuclear agreement. It also comes at a 
time when President Trump is making his first trip abroad in 
the sphere threatened by Iran's malign acts. So it is fitting 
that we take up Iran in this subcommittee this afternoon, as 
this is a time when both countries are reassessing their 
security posture toward each other.
    I supported, and continue to support, the Iran nuclear deal 
because it made us and our allies more secure and brought Iran 
more in line with international principles of nonproliferation. 
I also support aggressive, robust monitoring and enforcement of 
the deal so that we are certain that Iran never waivers in 
upholding their commitments under the agreement.
    However, Iran's nuclear ambitions were not the only threat 
they posed to the region and to the United States' security 
interests. Iran has continued to conduct several ballistic 
missile tests in defiance of U.N. Security Council Resolution 
2231, and to support terrorist organizations operating 
throughout the region, actively involved in the civil conflicts 
in Syria and in Yemen, and, as a result, is exacerbating the 
continued bloodshed in both countries, and further stalling 
resolutions to these conflicts.
    Iran's human rights record is also appalling. Participation 
in civic life is severely restricted with the regular arrest of 
journalists and activists and repression of free speech, not to 
mention the ongoing imprisonment of American citizens. The 
United States' posture toward Iran must take into account all 
layers of Iran's aggressive stance toward the world.
    However, that also includes taking into account the 
powerful role of Iranian public opinion. As we consider U.S. 
policies toward Iran and our response to Iranian threats to 
stability and security, we cannot do so without also 
considering Iran's domestic context, and recognizing that the 
President, President Rouhani, just received broad support from 
a diverse range of voters in Iran on Friday.
    Here in Congress, and within the U.S. Government, we must 
be committed to curbing Iran's malign activities, and we must 
do so diligently. Iran's destabilizing action throughout the 
Middle East threatens the United States and must be met with 
clear condemnation for the sake of the countless human lives at 
stake and of the global rule of law. Yet we must take note of 
the complex reality that accounts for the domestic context in 
Iran today.
    Therefore, I look forward to hearing from our witnesses and 
hear about how Congress can navigate these many security 
threats from Iran without running afoul of our international 
commitments, without backsliding on progress made so far and 
bringing Iran into compliance with international law and norms.
    With the reelection of President Rouhani, I believe we must 
seize any possible opportunity to move forward in curbing 
Iran's support for terrorist organizations, undeterred 
ballistic missile testing, continued involvement in conflicts 
across the region, and its gross human rights violations. We 
should do so with the support of our allies, and our actions 
should be carried out swiftly, yet deliberately.
    I thank the witnesses. I look forward to your testimony.
    I yield back.
    Mr. Poe. I thank the gentleman for his comments.
    The Chair will now have opening statements by members of 
the committee, 1-minute opening statements.
    The Chair recognizes the gentleman from Florida, Mr. Mast.
    Mr. Mast. Thank you for recognizing me. I appreciate it. 
And thank you for your testimonies.
    I think it is important, on the heels of Memorial Day, that 
we really identify what it looks like for Iran to be the 
largest state sponsor of terrorists. It has become a phrase 
that has become so cliche in recent past. And what that really 
means, on the heels of Memorial Day, is it is Iranian hands 
that have made IEDs, the explosively formed projectiles that 
tore through our Up-Armored Humvees in Iraq. And it is Iranian 
hands that packed improvised explosive devices with nuts and 
screws and bolts and so many pieces of shrapnel that were 
placed in places like Afghanistan to put so many holes in our 
servicemembers that they could never be plugged before they 
bled out. That is what it looks like to be the largest state 
sponsor of terror. And I just think it is important that we 
keep that as a frame of reference, especially on the heels of 
Memorial Day, as we have this conversation.
    I thank you for your time testifying today, and I look 
forward to hearing from you.
    Mr. Poe. I thank the gentleman from Florida.
    The Chair will recognize the gentleman from Pennsylvania, 
Mr. Boyle.
    Mr. Boyle. Thank you to the chair and ranking member.
    I would say that--and I happen to have been someone on the 
democratic side of the aisle who voted against the Iran deal. 
And I know there were good, principled arguments on both sides 
of that.
    What I am most interested in, though, is not continuing to 
beat a dead horse of the political fight over this and moving 
beyond the politics of the deal, and whether or not it was a 
good idea, and accepting the reality, and moving forward. And, 
specifically, focusing on--my comments very much dovetail after 
the last ones we just heard--going after Iranian funding for 
Hamas, for Hezbollah, for their continued role in the Syrian 
civil war, for what they are doing in Yemen. I believe that 
should be our focus.
    And rather than continuing to relitigate the past of the 
Iran deal, let's focus on that. Because, at the end of the day, 
it is cliche for a reason, they are the largest state sponsor 
of terrorism throughout the world. And that will continue 
unless we go after their funding.
    Thank you. I yield back.
    Mr. Poe. The gentleman yields back his time.
    Without objection, all of the witnesses' prepared 
statements will be made part of the record.
    I ask that each witness keep their presentation to no more 
than 5 minutes. When the red light comes on in front of you, 
that means stop. And I will help you enforce that rule. I will 
introduce each witness and give them time for their opening 
statements.
    Ilan Berman is the senior vice-president of the American 
Foreign Policy Council. He is an expert on regional security in 
the Middle East and has consulted for both the CIA and the 
Department of Defense.
    Dr. Ray Takeyh is a senior fellow for Middle East studies 
at the Council of Foreign Relations. Prior to joining the CFR, 
he was a senior advisor on Iran at the State Department.
    And Dr. Daniel Byman is a senior fellow in the Center for 
Middle East Policy at Brookings. His research focuses on 
counterterrorism and Middle East security.
    Mr. Berman, we will start with you, and you have 5 minutes.

 STATEMENT OF MR. ILAN BERMAN, SENIOR VICE PRESIDENT, AMERICAN 
                     FOREIGN POLICY COUNCIL

    Mr. Berman. Thank you, Judge Poe. And thank you, Judge. And 
thank you, Ranking Member Keating. And I really appreciate the 
opportunity to be here today to discuss the 2015 nuclear deal 
between Iran and the P5+1 powers.
    A good place to start is to recognize that more than a year 
after its implementation, the effects of the agreement have 
been profound, and they have been profoundly negative both for 
the stability of the Middle East and for American interests 
there. And much of this problem revolves around the fact that, 
while the agreement was only intended to be tactical in nature, 
to deal strictly with one aspect of the global threat that is 
posed by Iran, its effects for Iran have been both extensive 
and they have been strategic in nature.
    Most notably--and I have a more detailed discourse in my 
written statement, which you have in front of you. But, most 
notably, I would point out that the JCPOA has had a material 
effect on reinvigorating the global ambitions of a regime that 
truly thinks globally, that thinks about itself as a regional 
hegemon and as a country with power projection capabilities far 
beyond its borders. And you can see this evident in several 
lines of effort that the Iranian regime is pursuing currently.
    The first is a multispectrum military modernization that is 
both reinvigorated and is sustained in nature. And it 
encompasses things like the expansion of Iran's national 
defense budget to 5 percent of GDP; the acquisition of billions 
of dollars of new hardware from supplier states, like Russia 
and China; and substantially deeper investments in cyber 
warfare capabilities both for defense and for offense.
    You can see Iran's focus on stepped-up regional activism, 
including greater assistance to the Assad regime in Syria, and 
also serving as a facilitator for a secondary state-directed 
foreign fighter flow that is bringing Afghans, Yemens, Shiites 
of non-Syrian origin to the Syrian battlefront. And you can see 
this in the solidification of Iranian influence over Iraqi 
politics through its extensive sponsorship of both Shiite 
militias and patronage of Shiite politicians in Iraq.
    And, also, as all the members noted, you see a substantial 
surge in the amount of money, already extensive, that Iran has 
allocated toward the activities of organizations like Hezbollah 
in Lebanon and also in Syria and Hamas in the Palestinian 
territories.
    The cumulative effect of this is that General Joseph Votel, 
the commander of U.S. Central Command, testified about 
approximately 1\1/2\ months ago, that these initiatives have 
made Iran<greek-l>, quote, deg. ``the most significant threat 
to the central region and to our national interests and to the 
interests of our partners and allies there.'' And I think that 
is a significant development. It is a significant escalation in 
the threat that is posed by Iran.
    And this, I think, leads us to the question of: What can be 
done? I think that the Trump administration's Iran policy is 
still a work in progress. They are undergoing a comprehensive 
policy review that is going to touch on all aspects of Iran 
policy, including the nuclear deal, and other issues. But, as 
they do, I think they would be very well-advised to focus on 
four priorities.
    The first is to reestablish economic leverage over Iran. 
The JCPOA has put in motion a fundamental unraveling of the 
global sanctions regime against Iran for a host of reasons. And 
Washington needs to restore the economic leverage that it once 
had against Iran, and it can do so through measures like the 
additional blacklisting of entities engaged in illicit 
behavior, and also a comprehensive blacklisting on the Iranian 
Revolutionary Guard Corps, which controls a third or more of 
Iran's national economy.
    The second priority should be to ensure compliance with the 
terms of the nuclear deal. Because as much as termination of 
the JCPOA was a campaign issue last year, it is abundantly 
clear that the contours of the agreement will remain in force, 
at least for the near future. And that means that we have to 
focus on ensuring compliance, in material terms, the hiring of 
additional inspectors, gaining access to facilities that are 
currently obscured, and, most of all, constructing a menu that 
talks about what constitutes a material breach of the agreement 
so that all the members of the P5+1 can be on the same page 
about whether Iran is in violation of its obligations.
    Very briefly, the other two priorities that the 
administration should focus on would be mechanisms by which it 
can constrain Iranian expansionism, to include the construction 
of a regional security architecture very much along the lines 
of what the Trump administration has begun discussing in its 
current trip to the Middle East.
    And, lastly, the reconstruction of American credibility, 
vis-a-vis, the Iranian people. Historically, the United States 
has served as a champion for ordinary Iranians in their 
struggle against the clerical state. This is a moral high 
ground that the U.S. has retreated from over the last 8 years 
in the service of a tactical arrangement with the Iranian 
regime. And this is ground that we need to make up. And we can 
make this up in a number of different ways, from different 
statements, to more robust broadcasting, to other 
demonstrations of the fact that this administration is not 
prepared to accept the current political status quo in Tehran.
    And the time to do so, in my opinion, is now. The U.S. 
Government needs to move robustly to implement a new approach 
that begins to roll back Iranian influence and activities in 
the region, activities that have been emboldened, in no small 
measure, by the agreement that was signed in July 2015.
    Thank you.
    [The prepared statement of Mr. Berman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. Thank you, Mr. Berman.
    Dr. Takeyh.

STATEMENT OF RAY TAKEYH, PH.D., HASIB J. SABBAGH SENIOR FELLOW 
     FOR MIDDLE EAST STUDIES, COUNCIL ON FOREIGN RELATIONS

    Mr. Takeyh. Thank you.
    I know from previous representations in front of Judge Poe, 
5 minutes means 5 minutes. So I will stay diligently within the 
timeframe that I am sure you will insist upon.
    Terrorism, the use of political violence, is an enduring 
aspect of the Islamic Republic. The regime's victims, as was 
mentioned, span the region. But the most vulnerable targets of 
that state-sponsored violence have always been the Iranian 
people themselves.
    The key actors defining Iran's regional policies are not 
its diplomats but its Revolutionary Guard Corp, particularly 
the famed Quds Brigade. For the commander of the Quds Brigade, 
General Soleimani, the struggle to evict America from the 
region began in Iraq, has now moved to Syria. For the 
hardliners, the Sunni states' attempt to dislodge Bashar Assad 
is really a means of weakening Iran. Thus, the survival or the 
success of the Assad regime at this point is one of the central 
elements of the Iranian foreign policy.
    The question then becomes what impact the nuclear deal have 
on Iran and its regional surge. The proponents of the agreement 
at one point insisted that whatever windfall there was would be 
funneled for domestic purposes and Iran's depleted economy. By 
their telling, Iran had prioritized its malign activities even 
during the times of economic stress. Two years later, we see 
some of the aspects of those claims cannot be substantiated.
    Iran's defense budget has gone up by about 50 percent. It 
used to be about 2.7 percent of the GDP. Between now and year 
2020, it is likely to be 5 percent of the GDP. So it has about 
doubled.
    Iran's model for operating in the Middle East today is 
drawn from its experiences in Lebanon in the early 1980s. It 
was at that time that Iran amalgamated various Shia parties 
into the lethal Hezbollah. In essence, Iran created a militia 
outside the control of the weak Lebanese state. In the 
meantime, Iran sought to manipulate the politics of Lebanon to 
its advantage by making sure that the central government 
remains weak.
    A decentralized state not in full command of coercive power 
is a model that Iran has used first in Lebanon and now in Iraq 
and, of course, in Syria.
    Since the U.S. invasion of Iraq in 2003, Iran has sought to 
take advantage of the disorder there and extend its influence. 
The Islamic Republic has trained Shia militias, as was 
mentioned, that are responsive to its orders and has sought to 
sharpen the sectarian divides in Iraq as a means of dividing 
that nation against itself. The rise of the Islamic State has 
actually provided Iran an opportunity for further inroads in 
Iraq. Under the auspices of fighting the Islamic State, Iran 
has further projected its power in that nation. So long as 
Iraq's trouble continues, Iran can be counted on to further 
exacerbate them.
    Since the beginning of the Syrian civil war, Iranian 
officials maintained that the Assad regime will survive. This 
assessment stood in contrast to those Western powers who assure 
themselves that the forward march of history would envelop the 
Syrian dictator. The Iranian model of operation in Syria, 
again, is very much similar to that of Iraq and, previous to 
that, Lebanon.
    Once more, Iran deployed to develop militias outside the 
control of the state, deployed a large number of Revolutionary 
Guards and Hezbollah proxies, and, essentially, took command of 
the ground forces. Without Iranian assistance and guidance, 
Syrians may have been spared some of the carnage that has 
wrecked their country.
    Supreme Leader Ali Khamenei today stands as the most 
successful Persian imperialist in the history of Iran. In the 
1970s, at the height of his power, the Shah did not enjoy 
commanding influence in Iraq, Lebanon's confessional politics 
eluded him, and the Assad regime was not a mere subsidiary of 
Iran, and the Persian Gulf States resisted his pretensions.
    Today, Iran has essential control of much of the Iraqi 
state. It is the most important external actor in Syria, and 
Hezbollah provides it with not just means of manipulating 
Lebanese politics, but also shock troops that can be deployed 
in various war fronts.
    It is important to appreciate that, actually, Israel 
remains the principal victim of Iranian terrorism. Iran's 
hostility toward Israel is one of the most enduring and 
perplexing aspects of its history. Iran's animosity toward 
Israel can be traced back to the founding of its revolution. In 
the eyes of the founder of the revolution, the creation of 
Israel was the most unforgettable sin. In a perverse way, 
Iran's opposition to Israel exceeds even its opposition to the 
United States, because it objects to various American acts, not 
to its existence as it does with Israel.
    A regime as dangerous to U.S. interests as Islamic Republic 
requires, as was mentioned, a comprehensive strategy to counter 
it. This means exploiting all of Iran's vulnerabilities, 
increasing the cost of its foreign adventures, weakening its 
economy, supporting its domestic discontents. Pursuing this 
strategy will take time, but, eventually, it will put the 
United States in a position to impose terms on Iran. And we 
should, as was mentioned, put human rights at the top of the 
agenda, not look the other way as Iran's leaders oppress their 
people.
    And my time has ran out exactly at 5 minutes.
    [The prepared statement of Mr. Takeyh follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. Dr. Byman.

STATEMENT OF DANIEL L. BYMAN, PH.D., SENIOR FELLOW, CENTER FOR 
           MIDDLE EAST POLICY, BROOKINGS INSTITUTION

    Mr. Byman. Thank you, Mr. Chairman. I will try to emulate 
Dr. Takeyh.
    Mr. Chairman, Mr. Keating, members of this subcommittee, 
thank you very much for this opportunity to testify.
    Iran's terrorism and destabilization efforts are primarily 
a threat to U.S. interests and U.S. allies in the Middle East. 
Support for militant and terrorist groups in Iraq, Syria, 
Yemen, and elsewhere enable Tehran to show up key allies like 
the Syrian regime, Bashar al-Assad. It also gives Iran leverage 
with regional rivals like Saudi Arabia. And ties to militant 
groups strengthen pro-Iran voices in the region, increasing 
Iran's influence in some of the capitals in the region, but 
also in some of the more remote hinterlands. Iran believes that 
support for militants pays policy dividends.
    The Assad regime, once teetering, is now ascendant or at 
least in a stronger position. Iran's support to various groups 
in Iraq have given Tehran influence at both the local and 
national level. And Hezbollah has proven a loyal ally that has 
helped Iran project its influence in Lebanon and in neighboring 
states and against Israel.
    Iran does not appear to be actively targeting the U.S. 
homeland with terrorism, but its capacity remains latent. 
Tehran uses its ability to strike U.S. assets outside war zones 
to deter the United States and as a contingency should the 
United States attack Iran.
    Iran spends billions of dollars on supporting its proxies 
and deploying its own military forces. This is a huge sum for a 
country with significant economic problems and a limited 
military budget.
    In addition, the nuclear deal raised expectations of 
economic improvements among the Iranian people, and spending 
more on militants abroad makes it harder for the regime to 
satisfy these demands at home.
    For the Trump administration to better counter Iranian 
influence in the Middle East, it should seize the opportunity 
to reset U.S. relations with key regional allies. Many Middle 
Eastern allies had lost faith in the Obama administration, and 
several, notably Israel and Saudi Arabia, are going to 
elaborate lengths to ignore the missteps and often 
contradictory behavior of the Trump administration in hopes of 
closer cooperation. Additional pressure on entities like the 
Islamic Revolutionary Guard Corps would help send the right 
message to allies and to Iran. Washington should also highlight 
the cost of Iran's adventurism to ordinary Iranians to raise 
domestic awareness and discontent with the regime's foreign 
policy.
    The United States should step up efforts to build a 
credible and modern Syrian opposition to put additional 
pressure on Iran's Syrian ally. And in Yemen, Washington should 
support negotiations to end the war, as the current Saudi 
approach is giving both Iran and the al-Qaeda affiliate in 
Yemen an opportunity to expand their influence.
    At the same time, the Trump administration must remember 
that Iran can push back. The 2015 nuclear deal, for all its 
flaws, remains better than any current plausible alternative, 
and pulling out of the agreement would be a mistake. In 
addition, Iran has leverage and many vulnerabilities to 
exploit, given its role in fighting the Islamic State and the 
exposure of U.S. troops in Iraq and Syria to Iranian-directed 
violence.
    Mr. Chairman, thank you, again, for this opportunity to 
testify.
    [The prepared statement of Mr. Byman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. And I thank all of you for your testimony. I will 
recognize myself for some questions.
    I have introduced H.R. 478, the IRGC Terrorist Sanctions 
Act, and it would designate the IRGC for its terrorist activity 
under Executive Order 13224.
    I want to ask each of you if you support that concept or 
you don't. And it is either a yes or a no.
    Mr. Berman?
    Mr. Berman. I do, sir.
    Mr. Poe. Dr. Takeyh?
    Mr. Takeyh. Yes, sir.
    Mr. Poe. And Dr. Byman?
    Mr. Byman. Yes, sir.
    Mr. Poe. There are many things that I would like to go 
into, but let me just start with the first one.
    Mr. Berman, you mentioned that the United States needs to 
develop a better relationship with the Iranian people, letting 
them understand that it is the regime that we don't support, 
but we support the people of Iran to be able to have self-
determination to rule their own country and not the mullahs. 
Can you expound on how we could do that?
    Mr. Berman. I can try, sir.
    I think that a relatively underutilized tool that the 
United States has at its disposal is our ability to bypass the 
regime and communicate directly to the Iranian people through 
mechanisms like The Voice of America's Persian News Network and 
other broadcasting tools. And, here, what we say is as 
important as how loud we say it.
    Programming that emphasizes the endemic corruption within 
the regime; that elevates the plight of individual political 
prisoners that are being maligned by the regime; that 
demonstrates to the Iranian people that, despite the economic 
benefits of the JCPOA, there has been no trickle-down effect 
that have benefited the ordinary Iranians. All of those things, 
I think, would help diminish the credibility of the Iranian 
regime, elevate America's standing in the eyes of the Iranian 
people, and really, I think, amplify all of the other elements 
of the Trump administration's strategy as it begins to be 
formed.
    Mr. Poe. So if I understand you correctly, we should do 
everything we can to let the world and the Iranian people know 
that we support them in changing the regime in a peaceful way, 
that should be the U.S. policy as opposed to ultimate conflict, 
militarily, with Iran. Is that a fair statement?
    Mr. Berman. Yes, sir. Yes, sir.
    Mr. Poe. All of you mentioned Assad and also mentioned 
Iraq. What is Syria's relationship to Iran? Is it a puppet 
state? Same question about Iraq: Is Iraq becoming a puppet 
state of Iran? How would you characterize that relationship 
with Iran and those two countries?
    Mr. Berman, you first
    Mr. Berman. Absolutely. I will go very quickly, and I will 
allow my colleagues to step in.
    I think it is necessary to think about Syria in the context 
of what it does for Iran, both as a strategic partner and as a 
buffer state. Syria is part of that access of resistance that 
Iranian officials continually talk about withstanding pressure 
from the west, from the United States, and from Israel. Syria 
is a very important link in that access because of the land 
bridge that it provides to Iran's chief terrorist proxy, 
Hezbollah, in Lebanon. And the idea of a Syria that is no 
longer managed by a compliant partner, that is Balkanized or is 
subverted by a radical Sunni group, is anathema to Iran's long-
term strategic interests, which goes a long way toward 
explaining why Iran has sunk so much blood and treasure into 
preserving the current status quo in Syria.
    Mr. Poe. Dr. Takeyh?
    Mr. Takeyh. I would agree with that on Syria.
    I would actually suggest that--I wouldn't characterize Iraq 
as a state that today is a subsidiary of Iran. I think Iraqis 
don't want to be proxies of Iran. Iraq has institutions. It has 
some sort of a democratic structure, highly imperfect. And 
there is a lot of discussion nowadays about pushing back on 
Iran in the region.
    I think the place that one can do so, perhaps as 
effectively as elsewhere, would be in Iraq, because Iraq has a 
history of being the seat of civilization as opposed to being a 
subsidiary of a Persian empire. And I do think Iraqi 
politicians, really across the board, would like to be 
emancipated from the Iranian influence. There are a lot of 
reasons they are not. They are not welcome--Iraq is not welcome 
in the council of Sunni Arab powers. That is something the 
United States can work on. And gradual integration of Iraq as a 
Shia state in a Sunni Arab--emphasizing their ethnic identity.
    So I think Iraq is a place where it is struggling to be 
free of Iran. But it----
    Mr. Poe. Let me ask you this last question.
    And, Dr. Byman, you can give me your answer in writing. 
United States presence in Iraq, should it remain about the 
same? Should we ratchet up, militarily, our presence? Or should 
we just leave Iraq? Three options.
    Mr. Takeyh. I would imagine there has to be an enhanced 
military presence, but also an enhanced civilian presence in 
terms of Iraqi ministries, bureaucracy, and rehabilitating the 
institution. There has to be a greater degree of American 
presence, military as well as the civilian counterparts.
    Mr. Poe. Thank you.
    The Chair will yield time to the gentleman from 
Massachusetts, Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    I think everyone, almost universally, whether they favored 
or didn't favor the JCPOA, acknowledged that they were about 8 
to 12 weeks away from having a nuclear weapon. That was pretty 
well understood at that time. So as we are talking about a 
rejuvenated Iran, in all likelihood, we would be sitting here, 
in the absence of that agreement, having an Iran that had 
nuclear weapons. How could that not improve their influence and 
their malign activities coming from a strong point of having 
nuclear weapons to begin with? We are learning in North Korea 
how difficult that is.
    Mr. Byman?
    Mr. Byman. Mr. Keating, I favored the nuclear deal for 
exactly that reason. There are plenty of flaws with it, and we 
could spend more than this hearing pointing them out. But there 
aren't particularly good alternatives. And Iran without a 
nuclear weapon or Iran with a delayed nuclear weapon is better 
than Iran with a nuclear weapon right now.
    Mr. Keating. Thank you. That is where I--there were flaws. 
But you can't ignore that reality. As a matter of fact, Mr. 
Berman mentioned the Trump administration is embedded with 
this. They are not any more embedded than when the President 
said, on day one, he would tear up the agreement.
    So what happened since the election?
    Mr. Berman. Well, sir, I think it is one thing entirely to 
talk about tearing up the deal on day one as part of a stump 
speech during the campaign season. It is another thing entirely 
to recognize that, even though the JCPOA is an executive 
agreement and therefore can be terminated at the leisure of the 
next executive, it is actually a multilateral pact, and, 
therefore, the United States walking away from the JCPOA could 
end up in a situation where American leverage, notwithstanding, 
the JCPOA remains----
    Mr. Keating. Wouldn't that have been the case just at the 
time of the signing? It is all clear that the other 
participants in our coalition of sanctions--people, countries 
putting sanctions on Iran, they were ready to walk away then. 
And then we would have had the U.S., by itself, in Iran with a 
bomb. But that is just, I think, the real reason that tearing 
it up day one didn't occur, not because it was embedded.
    But another question I have too, again, Mr. Berman. You 
said that it is the last 8 years that there has been a 
situation where Iran has advanced and gone through, implying 
that it was just under the Obama administration that that 
occurred. Nothing happened under the Bush administration? They 
weren't moving forward to its nuclear weapons and that 
capability? Nothing happened during that stage?
    Mr. Berman. No. Sir, to clarify my point, I mentioned the 
two terms of the Obama administration in the context of America 
changing its relationship with the Iranian people directly. I 
think if you track the change in official rhetoric during the 
course of President Obama's two terms--and you can see that, 
for example, manifested in the annual New Year's greetings that 
every President since Gerald Ford has issued to the Iranian 
people on March 20th of every year. What you see is a 
trajectory that begins with communications to the Iranian 
people.
    Mr. Keating. Well, if I could interrupt. You know, we all 
know that security officials in the U.S. say they give 
Christmas greetings when they are making phone calls. But let 
me just put that in the context of saying, there was a 
progression of nuclear development during that year.
    You know, I think we have to get, as much as we can, beyond 
the partisanship here, and that is the reason I pointed to 
those questions. These issues are far too important, and that 
is why I focused on that. But I must say that I favor too very 
strong sanctions in this area. And we can do that with no 
interference whatsoever with the agreement. There is plenty of 
options for the U.S., and I support them, because of Iran's 
military ballistic testing, ballistic missile testing, because 
of their human rights positions and actions, and because they 
are an exporter and enabler of terrorism through the whole 
region.
    So I think we could do that. There is plenty of areas of 
agreement in that respect. So I want to thank you all for doing 
this and just say, on this important issue that we all agree is 
a central issue to our security, the extent that we move away 
from branding political partisan actions, we will all be 
stronger.
    I yield back.
    Mr. Poe. The Chair recognizes the gentleman from 
California, Colonel Cook.
    Mr. Cook. Thank you very much, Mr. Chair.
    Dr. Takeyh, I wanted to ask you--I want to shift gears a 
little bit.
    Saudi Arabia, since we are on the subject of nuclear 
weapons, there was a lot of speculation about the fact that 
with this agreement, that Saudi Arabia would unilaterally 
purchase or develop a nuclear device, because they are the, at 
least in recent years, the traditional enemy.
    Do you have any comments on that in terms--I know it is 
hypothetical, but there was quite a bit of talk about it at the 
time.
    Mr. Takeyh. I think there were many things wrong with the 
Iranian JCPOA nuclear agreement. It is a flawed agreement. But 
I was never persuaded entirely of the cascade effect. Namely, 
that other countries would seek to emulate that capability. For 
one thing, I don't think the Saudis have this scientific 
foundation or a cadre to be able to, at this point, man an 
indigenous atomic nuclear program.
    Mr. Cook. How about a purchase from a country like 
Pakistan?
    Mr. Takeyh. I am not a Pakistan expert. But should Pakistan 
have sold a nuclear weapon to Saudi Arabia, it would be the 
first state to actually transfer nuclear weapons to another 
state. Without precedent. Now, if anybody can break precedent, 
it is the Pakistanis. I just don't know enough about Pakistan. 
Every time I would ask somebody who knows something about 
Pakistan, they will say they would do it.
    Mr. Cook. Okay. Can I switch gears a little bit?
    I want to talk about Bahrain, and the number of Shia 
residents there, and the influence of Iran on a pivotal 
country. Obviously, that is where our fleet is and everything 
like that. Do you have any comments on that? Because the 
Bahrain is involved in the war in Yemen, and which I am sure 
is, you know, as part of the Saudi coalition, and whether that 
is the next, if you will, in this domino effect of countries 
that Iran has supported.
    Mr. Takeyh. In the Gulf today, Bahrain remains a country 
that has been most vulnerable to Iranian subversion, and the 
activity of Iran subversion in Bahrain utilizing the Shia 
population is increasing to the extent of, I think, even 
dispatching arms. So Bahrain is becoming a specific target of 
Iran's, as they will say, malign activities, more so than, I 
think, other places in the Gulf, simply because there have been 
disturbances there in the aftermath of 2011, and Iran always 
tries to fish in muddy waters. So I think you are seeing a 
greater degree of subversive participation in Bahrain at this 
point.
    Mr. Cook. Okay. And last question or issue I want to talk--
and, Mr. Berman, I haven't picked on you. And I apologize. But 
the war in Yemen, and particularly, once again, the Saudi 
investment, in terms of that escalating, this is tremendous 
consequences for the Red Sea and the closure of the Suez. If 
that continues, with an escalation, how do you think that could 
play out in terms of involvement of those countries in the 
region and the United States?
    Mr. Berman. I will attempt very briefly.
    I think that the proper lens through which to view what is 
happening in Yemen--and, incidentally, it is worth noting that 
Yemen is in the throws of three separate security crises, not 
simply the civil war. However, the instability that is 
localized there now has the potential to have a very large 
catalytic effect on the safety and security of energy shipping 
through the Bab al-Mandab and other strategic waterways. And it 
is also, I think, correct to view what is happening in Yemen 
as, at least in part, a proxy battle between Iranian-supported 
rebels on the one hand, and the Saudi state, and the Gulf 
monarchy, the Sunni Gulf monarchies, on the other.
    There is, I think, a very high potential for escalation 
because of these characteristics, and it is a crisis that I 
think the Unites States needs to navigate very carefully.
    Mr. Cook. Thank you, very much. I yield back.
    Mr. Poe. I thank the gentleman.
    The Chair recognizes the gentlelady from Nevada, Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman.
    You know, we have just heard for the last few days a lot 
about the President's trip to the Middle East and to Israel. 
And so we have heard him talk about cooperation and new 
directions and all of that. And that is why I would just point 
out, again, that while your testimony is very interesting, and 
I thank you for being here, it is not all that helpful moving 
forward. It is good analysis, but we really need to hear from 
members of the administration to put some meat on the bones 
here. Just what are the plans? What are the details? What do 
they have in mind going forward with this new direction?
    I would just ask you, quickly, Mr. Berman, you mentioned 
several times the need to reach out beyond the government to 
the people of Iran. I wonder if you know what the new budget 
does to Voice of America, for example.
    Mr. Berman. Ma'am, I do. I think the conversation about the 
current shape and content of U.S. broadcasting toward Iran 
specifically is a work in progress. I can divulge--I have on 
public forums--that my organization, the American Foreign 
Policy Council, has been asked to do an independent third-party 
review of content relating to Persian-language broadcasting, 
and I will reserve all judgment until the findings of that 
study come back. But I would hope that those findings will have 
an impact upon how the administration sees the utility of 
strategic communication.
    Ms. Titus. I hope so too, because at a time when apparently 
we need it even more, it is being cut by about 9 percent. So 
let's just get that on the record.
    I will now ask you, Dr. Byman. In your written statement, 
you note that--and I will quote you, if you don't mind: ``The 
new initiative or form of pressure is going to require our 
allies. Economic pressure requires support from European and 
Asian allies, while military and diplomatic pressure requires 
Middle Eastern help as well.''
    I would like to go back to the point that our ranking 
member was making about the nuclear agreement. Another 
statement that came out of the travels of the President from 
Saudi Arabia was that, and I quote again: ``Iran's interference 
poses a threat to the security of the region and the world, and 
the nuclear agreement with Iran needs to be reexamined and some 
of its clauses.''
    This was a statement coming from the U.S. and Saudi Arabia. 
Now, Saudi Arabia wasn't part of that original agreement. So it 
is kind of confusing. And on the other hand, we are hearing 
that Iran lived up to its agreement. Now we are hearing we need 
a new direction involving Saudi Arabia.
    Could you tell us what you think the other members of the 
original agreement are going to think about opening up again 
and looking at some of these provisions and working with people 
who weren't even part of the original agreement?
    Mr. Byman. As you know, the agreement required painful and 
also painstaking diplomacy. And I think many countries walked 
away, not completely satisfied, but at least getting some sense 
of what they were hoping for. The problem with opening this up 
again is that it looks like it is the United States that is 
doing it when, at the same time, the United States is 
certifying that Iran has lived up to its side of the bargain in 
letter. Not always in spirit but in letter.
    And, as a result, many of our allies would be skeptical of 
this, and I think we would end up worse off than we were in 
2011, that the economic pressure that was brought to bear in 
2011 would be very difficult to rebuild because the problem 
would be seen as emanating from Washington rather than from 
Tehran.
    My hope would be that we could build economic pressure on 
other issues, not the nuclear issue, but terrorism, such as the 
subject of this hearing, for exactly that reason. I think Iran 
should be pushed to move away from much of its nasty activity, 
but doing so, on the nuclear agreement, without a clear 
violation from Iran, in my mind, would be a mistake.
    Ms. Titus. So you don't think that, say, Russia or China or 
some of the European countries would think this was a good 
idea?
    Mr. Byman. I hate to invoke Russia or China, because I 
think they would happily rush in to exploit any sense of a U.S. 
misstep or a weakness. But I would even say real allies, allies 
in Europe, for example, most of them would think it was a 
mistake.
    Ms. Titus. Thank you. I yield back.
    Mr. Poe. I thank the gentlelady.
    The Chair recognizes the gentleman from Pennsylvania, Mr. 
Perry.
    Mr. Perry. Good afternoon, gentlemen.
    Thank you, Chairman.
    Mr. Berman, looking for, and I think you kind of enumerated 
some in your testimony, but I would like to go back through it 
a little bit. Iran's use of the funds released from the JCPOA 
to increase funding to terrorist organizations and activities. 
If we could kind of delve into that a little bit, the amount, 
to who, and how that is verified.
    Mr. Berman. Thank you, sir. And I am happy to provide more 
details. I have written about it and I have documented it 
elsewhere. So please forgive if I provide--if my incomplete 
memory----
    Mr. Perry. An overview will be good.
    Mr. Berman. The Congressional Research Service in July 
2015, about 2 or 3 weeks after the passage of the JCPOA, was 
asked by the office of Congressman Mark Kirk--of Senator Mark 
Kirk to outline what it believed was the scope of Iranian, 
then-sanctioned Iran, its funding, the scope of its funding for 
international terrorism. At that time, what was returned by the 
CRS was not a figure, but it was a range. It was a range 
between $3\1/2\ billion and $16 billion annually, at a time 
when Iran was still constrained by multilateral sanctions. And 
that range encompassed everything from between $100 million and 
$200 million annually to Hezbollah to up to $6 billion 
annually, at that time, for support for the Assad regime in 
terms of troops and materiel, to several dozens of millions of 
dollars for Iraqi militias. There were sort of very clear sort 
of line items that were enumerated in that report. And I am 
happy to make that available to you.
    I think sort of the takeaway from the time that has elapsed 
since has been that while a full snapshot of how much Iran is 
spending on this portfolio is still incomplete, at least in the 
Open Source, it is clear from certain data points in the Open 
Source Press, for example, that Iran has ratcheted up this 
financial activity with regard to Hamas, with regard to 
Hezbollah, in a way that is very detrimental to regional 
security because it expands the threat capabilities.
    Mr. Perry. So at what level? How do we determine at what 
level? And can you, with any confidence, conclude, for 
instance, missile technology Tomas, is directly attributable to 
the money that was received from Iran, from the United States 
as a result of the JCPOA?
    Mr. Berman. Sir, I think it would be very hard to point to 
a smoking gun in terms of direct transfer as a result of the 
JCPOA. What I would note, at least for the purposes of this 
hearing, is the overall expansion of available funds that are 
fungible that Iran can use for a variety of----
    Mr. Perry. We all get that, obviously. So currently, only 
the IRGC Quds force is designated by the Treasury for its 
terrorist activities. And I am thinking, you know, Mr. Mast, my 
time in Iraq where Iran, it was directly attributed, their use 
and manufacture of EFPs, explosive form penetrators, which is a 
cheap manned sabot round, goes right through an engine block, 
and certainly a human is--you can understand the devastation. I 
am wondering how we are going to--how we are going to sanction 
the broader IRGC under the requirements designated in the 
Executive Order 13224 and if we want to. But, first of all, I 
think we should. But maybe you have a different opinion. But 
how do we justify that?
    I mean, when we know these things are--you know, the IRGC 
is a big operation in Iran, controlling most of the activities 
of the country in a meaningful sense. So how do we get to that?
    Mr. Berman. Well, sir, in sort of--in the very short time I 
have allotted, I would point out two things. First of all, 
there is a policy goal of preventing a full normalization of 
trade with Iran that the administration has articulated. And in 
this context, the IRGC is very much low-hanging fruit. They 
control a third or more of Iran's national economy. They have 
controlling interests in the telecom sector, in the 
construction sector, and various other aspects of Iran's 
economy, and, therefore, a designation would have a chilling 
effect on--can be expected to have a chilling effect on foreign 
countries and companies that are involved in those sectors.
    Mr. Perry. So what would be the downside and how do you--
can we justify it currently? I know we got 30 seconds. Can we 
justify it currently and is there a downside?
    Mr. Berman. I think there is a downside. There is always a 
downside in these sort of designations. I believe that it could 
create not insubstantial trade disruptions between the United 
States and countries that are heavily leveraged in the Iranian 
market. I think this is not an insurmountable obstacle as well. 
And I think what we will find is that the lion's share of 
countries and companies that are involved in the Iranian market 
are much more heavily leveraged in the American market, and we 
can force them----
    Mr. Perry. I am not worried about the leveraging.
    Mr. Chairman, with your indulgence--the justification, can 
there be any justification under the current circumstances to 
designate the greater IRGC?
    Mr. Berman. You mean a precipitating event, sir?
    Mr. Perry. How do we know where they are spending the 
money? I mean, how do you prove the justification for 
designating them? If we haven't done it already, what has 
changed?
    Mr. Berman. Well, the lack of a designation up until this 
point, sir, I would argue is actually a failure of policy, and 
it reflects sort of a desire to turn a blind eye to the----
    Mr. Perry. Okay. So you are saying we currently have the 
justification.
    Thank you, Mr. Chairman. I yield.
    Mr. Berman. Yes, sir.
    Mr. Poe. The Chair recognizes the gentlelady from 
California, Mrs. Torres.
    Mrs. Torres. Thank you very much, Mr. Chairman. And thank 
you to our panel for being here.
    How could the Trump administration policies toward Russia, 
in recent statements during his trip to the Middle East about 
Iran, affect the United States' ability to pursue its 
objectives in curbing Iran's destructive influence in the 
region?
    Mr. Byman. It is a very big question. So I will say perhaps 
the most important first step is to restore confidence of U.S. 
allies in U.S. leadership. And that requires a sense that the 
United States is going to hear their concerns, but also that 
the United States is going to become and stay a major player in 
the Middle East. And that requires military presence. It also 
requires a political presence. It requires high-level 
engagement, and it requires almost constant lower-level 
engagement as well. And maintaining those ties, making sure 
allies are on the same page, making sure we have a plan, that 
is going to be necessary. That is hard for any administration. 
And I hope that the Trump administration can use any momentum 
from the recent trip to try to restore and build that 
coalition, and then develop the capacity within Washington to 
carry that energy forward.
    Mrs. Torres. Lower-level engagement as in?
    Mr. Byman. We need deputy assistant secretaries. We need 
people who are political figures throughout the administration 
who are often the counterparts. Any President, no matter how 
energetic, cannot handle every aspect of diplomacy 24 hours a 
day. Secretary of State cannot do so. And we need experts and 
advisors and mid-level officials, and that is vital to any 
administration's success.
    Mrs. Torres. I was hoping you would say that. Thank you.
    This subcommittee has previously heard testimony regarding 
the role of Iran and Russia in supporting the Taliban and the 
Shiite militias. How do their shared security interests impede 
U.S. objectives in the region and what options does the U.S. 
have in confronting those efforts?
    Mr. Takeyh. This is one of the more curious aspects of 
Iran's policy in a sense that it is willing to, at times, align 
itself with even radical Sunni groups. There are some 
indications of some level of relationship with al-Qaeda. There 
is always a relationship with some members or aspects of 
Taliban, and Russia has been doing the same thing.
    In this sense, there is a measure of amorality in terms of 
Iran's policy, particularly as it looks east in terms of 
Afghanistan. One of the ways of combatting that, as Judge Poe 
has his own legislation on the revolutionary guards, one of the 
ways we principally over the time have tried to impose 
penalties and costs on Iran is through economic measures. 
Whether they have been successful or not is hard to say. But 
that economic leverage, I think, is important to suggest, that 
coercive economic leverage is attenuated because of JCPOA. 
There are barriers and obstacles to that. So JCPOA is a nuclear 
agreement, but its restrictions also affect the progress of the 
United States in exercising the economic leverage tool that 
historically has deployed.
    Mrs. Torres. Anyone else?
    Mr. Berman. If I could, ma'am. I would point out, this, to 
me, is one of the central questions in our conversation about 
Russia and sort of where Russia fits. And I think there has 
been quite a learning process that the new White House has gone 
through.
    In the early days of the Trump administration, there was a 
lot of talk about whether it was possible to flip Russia on 
Iran, whether it was possible to get Russia, with a more 
specific relationship overall, to get Moscow to cooperate 
better on Tehran. But what we have discovered is that this is 
actually much harder than it looks, for a whole host of very 
practical reasons.
    Russia needs Iranian assistance and support in order to 
preserve a long-term presence in Syria, for forced projection 
in the Middle East. Russia, whose own economy is not doing 
well, needs those tens of billions of dollars of arms deals 
that has now concluded with Iran. And for these and other 
reasons, it is, I think, a little bit facile to think about the 
fact that Russia, with enough inducements, with enough carrots, 
will actually play ball on Iran. I think we need to start 
thinking more creatively about what tools of leverage we have 
that can separate the Russians from the Iranians in what is 
manifestly a very robust----
    Mrs. Torres. I want to get a last quick question in there. 
What cooperation, if any, is there between Iran and North Korea 
regarding ballistic missile development?
    Mr. Berman. I have 10 seconds, so I will have to be very 
brief. I would point out that the strategic relationship dates 
back to the late 1980s, but it extends beyond ballistic 
missiles. Every single nuclear test that the North Korean 
regime has carried out in the past decade has had observers, 
Iranian engineers as observers. And this----
    Mrs. Torres. On the ground?
    Mr. Berman. On the ground. And this speaks to a larger, 
deeper, and more nefarious strategic relationship, not only on 
ballistic missiles, but on other strategic programs as well.
    Mrs. Torres. Mr. Chairman, thank you for the 17 seconds.
    Mr. Poe. You are welcome.
    I know the State Department is looking for deputy 
secretaries. I think maybe three are right here sitting in 
front of us, though. You don't have to comment on that.
    The Chair recognizes the gentleman from Virginia, Mr. 
Garrett.
    Mr. Garrett. Thank you, Mr. Chairman.
    Sort of trying to wrap my brain around this is something, 
because, you know, I have only been here for a few months, and 
my background is as a company grade military officer and a 
prosecutor. And yet I look at the JCPOA, which at the risk of 
getting myself in trouble, I refer to as the JCPOS, and I 
wonder who wrote it. And what I mean by that is, if you look at 
U.N. Resolution 1929 that was controlling in 2010, the wording 
of the document read: Iran shall not undertake any activity 
related to ballistic missiles capable of--right? And then under 
the JCPOA we were handed language: Iran is called upon not to 
undertake any activities related to the development of 
ballistic missiles.
    Dramatic pause for effect. Right? You don't have to be that 
good a lawyer and certainly not that experienced a legislator 
to understand the difference between ``may'' and ``shall'' or 
``shall not'' versus ``is called upon not to.''
    Mr. Berman, at what possible point did any individual 
commissioned by the United States of America and the P5+1 think 
this wording made sense, and could you please shed some light 
on to why?
    Mr. Berman. Sir, I can't. And I say this advisably as a not 
very good lawyer who is recovering currently. I would point out 
that that language is dispositive. And what you have seen--and 
it is not only on the ballistic missile portfolio but on other 
aspects of multilateral pressure against Iran, where we have 
seen a watering down in the service of the nuclear agreement. 
And this is the only explanation I have for it, that in the 
service, in the hope that we could delay and potentially later 
derail Iran's nuclear program, we were willing to roll back the 
language, the compulsory nature of our international 
restrictions so far.
    As we have seen, I think this was a bargain that hasn't 
manifested itself as a good one, and I think we are now sort of 
trying to make up lost ground as a result.
    Mr. Garrett. So, Mr. Byman, you testified that Iran has 
lived up to its side of the bargain, and this is a quote: ``In 
a letter if not in the spirit.''
    I am not aware of your educational background, but does it 
shock you that when the previous oversight of Iran, as it 
related to U.N. Resolution 1929 was ``shall not undertake,'' 
and the JCPOA--JCPOS--JCPOA says, ``is called upon not to,'' 
does it shock you that Iran has engaged in ballistic missile 
activity?
    Mr. Byman. Not at all, sir.
    Mr. Garrett. And does anybody at the table know who it was 
that we empowered as a Nation and where they went to law 
school, who thought that this language is a good idea? Right?
    Mr. Chairman, if you will indulge me for a moment, it is 
not just about the procurement of a nuclear device. Right? A 
nuclear device needs a delivery mechanism. And so while you 
might take some short-term windows and say we have moved that 
back as we watched North Korea right now, not in the SCIF, we 
also know that there is miniaturization and mating a nuclear 
device to a delivery mechanism.
    And so you contemplate the terms of breakout. Is it not 
possible that Iran is angling toward a creep-out knowing that 
the mechanisms for delivery are being enhanced under our very 
nose by a language that we allowed, that someone was either 
criminally negligent or was aware of the intent, and that we 
are going to have a creep-out scenario where Iran not only has 
a nuclear weapon but also their delivery mechanism by which to 
essentially hold hostage the entire region if not the world?
    Mr. Takeyh.
    Mr. Takeyh. A nuclear weapon requires a number of things. 
It requires ability to enrich uranium with dispatch. Iran is 
currently developing the capacity with the advancement of this 
high-level velocity centrifuges, which are permissible by 
JCPOA. It requires ability to design--weaponization design. 
That is impossible to detect. Weaponization design could be a 
room in an office somewhere, so I imagine that is taking place.
    Third is projectiles to deliver that missile, and that is 
also excluded from the agreement, and therefore, they are 
developing those ballistic missiles. So the triad of a nuclear 
weapon is being developed right now.
    Mr. Garrett. I have a finite amount of time. I respect the 
answer, and I will come back to you. But essentially, it wasn't 
excluded from the agreement. We included--that is the delivery 
mechanism development. We included words in the JCPOA that at 
least politicians could come back to the American and global 
consuming public and go, oh, look, we have called upon them not 
to undertake the development, right, whereas we all understand 
``may'' versus ``shall'' versus ``called upon not to,'' right?
    So we didn't deny anything other than agreeing to a 
reduction of the number of centrifuges and eliminating 
plutonium centrifuges for a period of time. Am I correct?
    Mr. Takeyh. The plutonium capability has, I think, been 
foreclosed but not the enrichment capacity--enrichment 
capability. And you are right. In the Resolution 1929, it was 
impermissible for Iran to develop ballistic missiles. That 
language has obviously been attenuated, as you know.
    Mr. Garrett. Thank you.
    And thank you, Mr. Chairman.
    Mr. Poe. I thank the gentleman.
    The Chair recognizes the gentleman from Illinois, Mr. 
Schneider.
    Mr. Schneider. Thank you.
    And I apologize, I am in another hearing where we are 
having a vote, so if I jump up abruptly, please don't take 
offense. But thank you for your testimony. Thank you for your 
work. I was not able to be here for your testimony here, but I 
have studied your submitted testimony carefully, and I very 
much appreciate it.
    I think, Dr. Takeyh, you describe in your--you close in 
your remarks that, in the end, the nuclear agreement offered 
Iran all that it wanted and go on to identify that. I think 
that, for me, at the time was one of my concerns with the 
agreement, as well as the matter of time. But we are stuck with 
this agreement now. We are where we are. And I am sure you have 
talked about it in previous discussion, the need to enforce 
this agreement, enforce it to its letter.
    Mr. Berman, in your testimony, you talk about ensuring 
compliance and akin to the question. There is a great deal--you 
say there is a great deal that must be done in this regard. 
Could you highlight some of the specifics of what you see being 
absolutely necessary and what the Congress can do to move this 
forward to make sure that we absolutely lock down this 
agreement for the time we have it to make sure Iran doesn't get 
any closer to a nuclear weapon?
    Mr. Berman. Sir, I can hazard sort of the start of a guess. 
I think there is a more fulsome response that requires some 
study. But I would point out that the current regime--
monitoring regime structure that exists under the JCPOA is 
inadequate for a couple reasons. First of all, it is not fully 
sourced in the sense that the facilities that the United States 
Government believes are Iranian nuclear facilities are not 
completely covered by the inspections regime that is baked into 
the JCPOA.
    There are additional facilities that need to be looked at. 
There are many facilities that are co-located with military 
bases that are overseen by the Revolutionary Guard Corps, which 
are of specific concern.
    And there is also a--there have been limitations that have 
been imposed by the Iranian regime on free, unfettered access 
for the inspectors that do exist in their coming, going to 
these facilities.
    All of these ambiguities, as a start, should be assessed 
and discussed in order to determine whether or not we have 
adequate confidence that with this limited regime we can see 
everything there is to see.
    Mr. Schneider. Great. Thank you.
    Dr. Byman--and I promise, Dr. Takeyh, I am going to come to 
you as well.
    But, Dr. Byman, you say that the administration should, and 
I will quote you, ``lay down clear red lines regarding Iran's 
support for militant groups,'' and other things. What are the 
red lines you see? Again, what can Congress do to help state 
those, articulate them as clearly as possible but make sure 
that if those lines are crossed, there is articulated 
consequences as well?
    Mr. Byman. To say some that I hope are obvious and 
therefore could gather support across a wide spectrum of 
Americans would be any targeting, of course, of the U.S. 
homeland or any targeting of American assets overseas.
    And one thing we haven't done in the past is we have 
frequently ignored plots and focused on actual attacks, which I 
understand the political logic of that, but that is crazy, 
because some of the attacks could have easily happened. We were 
just a little lucky and a little skillful. And so that is where 
I put the emphasis. Obviously, any transfer of unconventional 
weapons to a terrorist group should be red lined.
    The thing I would emphasize, though, is this is something 
Congress should be heavily involved in because we have to show 
that this will span administrations; that regardless of who is 
in the White House, that the United States will act to stop 
those.
    Mr. Schneider. Thank you. I can't agree more with what you 
just said. And one of my issues with the JCPOA is that it is 
not just administrations but generations. And my concern with 
this 15-year term, and we see with the recent election, is that 
the people who signed this deal on the Iranian side have every 
expectation that they will be in power when the deal expires 
and can just wait it out.
    Dr. Takeyh, I want to come back to you. I want to give you 
the last word. You very, I think, cogently said--and, again, I 
am going to quote: ``A regime is dangerous to U.S. interests as 
the Islamic Republic requires a comprehensive strategy to 
counter it.''
    Hopefully, we can see a comprehensive strategy coming from 
the administration in conjunction with working with Congress. 
But are there things that you believe have to be--absolutely 
necessary--be a part of that comprehensive strategy, and, 
again, what can Congress do to further that?
    Mr. Takeyh. Well, one of the things--one of the things I 
would say is--I think it has been mentioned before--is the 
rebuilding of the alliances in the Middle East. Those alliances 
for a variety of reasons have been battered in the past few 
years, and once again, rekindling that particular capability of 
those.
    I would say in terms of hemming Iran's influence, as I 
mentioned before, I think Iraq is a place where we can more 
aggressively and effectively push back on Iran. That 
essentially is a very important battleground for Iran because 
it is far more important to their national interests and 
security objectives than I think Syria is. And it is the place 
where the United States has a greater degree of assets.
    Finally, I will say, I continue to stress that it is 
important to put economic pressure on Iran. But, again, I have 
to emphasize, that ability to impose economic pressure to some 
extent is weakened by JCPOA and its provisions of economic 
relief that have to come about, particularly in the realm of 
financial institutions. Because one of the things we found out, 
maybe belatedly, in between 2011 and the aftermath, is that the 
United States has the ability to segregate Iran from the global 
financial institutions. And that has a real effect on its 
domestic economy and its ability to project power, subsidize 
militias, and everything.
    And I think that particular instrument is now largely--not 
entirely, but to some extent weakened by JCPOA, particularly in 
terms of central bank sanctions and so on.
    Mr. Schneider. Right. No, I think we are limited. I hope 
that as a body, as was stated, that we can make it clear to 
Iran that it is the policy of our Nation, of this Congress, not 
just now, not just for the term of the agreement but forever 
that this regime will never get a nuclear weapon.
    So, again, I thank the witnesses for their testimony, and I 
yield back my time.
    Mr. Poe. I thank the gentleman from Illinois.
    And I thank all three of you all for being here today, for 
your excellent testimony. There may be more questions that 
members have. They will put them in writing, and they will 
submit them to the Chair, and we will submit them to you all 
for quick answers.
    So thank you very much. The subcommittee is adjourned.
    [Whereupon, at 3:19 p.m., the subcommittee was adjourned.]

                                     
                                  

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                
                                [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
